   June 17, 2005




Acquisition
Accounting for Sperry Marine
Pension Plan Assets Under an
Advance Agreement with Litton
Industries, Inc.
(D-2005-077)




              Department of Defense
          Office of the Inspector General
Quality              Integrity        Accountability
  Additional Copies
  To obtain additional copies of this report, visit the Web site of the Inspector
  General of the Department of Defense at http://www.dodig.osd.mil/audit/reports or
  contact the Secondary Reports Distribution Unit, Audit Followup and Technical
  Support at (703) 604-8937 (DSN 664-8937) or fax (703) 604-8932.

  Suggestions for Future Audits

  To suggest ideas for or to request future audits, contact Audit Followup and
  Technical Support at (703) 604-8940 (DSN 664-8940) or fax (703) 604-8932.
  Ideas and requests can also be mailed to:

                   ODIG-AUD (ATTN: AFTS Audit Suggestions)
                   Inspector General of the Department of Defense
                         400 Army Navy Drive (Room 801)
                             Arlington, VA 22202-4704




Acronyms
CAS                   Cost Accounting Standard
CIPR                  Contractor Insurance/Pension Review
DCAA                  Defense Contract Audit Agency
DCMA                  Defense Contract Management Agency
FAR                   Federal Acquisition Regulation
UAL                   Unfunded Actuarial Liability
                Department of Defense Office of Inspector General
Report No. D-2005-077                                                       June 17, 2005
   (Project No. D2004-D000PT-0001.000)

       Accounting for Sperry Marine Pension Plan Assets Under an
            Advance Agreement with Litton Industries, Inc.

                                 Executive Summary

Who Should Read This Report and Why? DoD and private sector contracting,
accounting, and audit officials who deal with Defense contractor business combinations,
divestitures, and pensions should be interested in this report for its application in
protecting Government-funded pension assets in advance agreement negotiations.

Background. We reviewed the December 1997 advance agreement between Litton
Industries, Inc., and the Government concerning the merger of the Sperry Marine, Inc.,
Employees Retirement Plan and Litton Industries, Inc., Retirement Plan B. The advance
agreement also covers the immediate spin-off of a new Sperry Marine, Inc., Employees
Retirement Plan from the Litton Industries, Inc., Retirement Plan B and the subsequent
termination of the new Sperry Marine, Inc., Employees Retirement Plan. The purpose of
the evaluation was to determine whether the advance agreement complies with the Cost
Accounting Standards (CASs) and Federal Acquisition Regulation and whether the
pension accounting provisions in the advance agreement provide for a fair and equitable
settlement to the Government. The CAS most relevant to the advance agreement is
CAS 413.50(c)(12), covering the settlement of pension assets when a contractor curtails
benefits under a pension plan, terminates a pension plan, or closes a segment.

Results. The advance agreement creates several CAS non-compliance issues regarding
the determination of the Government-funded pension asset balance and the calculation of
the actuarial liabilities. The advance agreement contains factual errors and omissions of
significant pension accounting events. The factual errors include the classification of the
March 31, 1997, merger of the Sperry Marine, Inc., plan into the Litton Industries, Inc.,
plan as a segment closing and an incorrect pension settlement calculation that was
performed as though the Plan had been terminated. The amortization schedule covering a
Sperry Marine, Inc., deficit was also incorrectly calculated. The advance agreement
omits a retroactive change in the actuarial cost method, lost investment earnings due to
delayed contributions, curtailment of benefits, and limitations on the liability for plan
improvements curtailed or terminated within 60 months of their effective date.

As a result, the Government incurred additional pension costs based on an erroneous
calculation that understated Government-funded pension assets and overstated liabilities.
The calculation was not performed in accordance with CAS 413.50(c)(12).

The Defense Contract Audit Agency (DCAA) should determine the correct amount of
pension cost and the correct value of Government-funded pension assets. The Defense
Contract Management Agency (DCMA) Contractor Insurance/Pension Review Team
should determine the correct amount of pension liability and the extent of the
Government’s exposure under CAS 413 to fund the liability. Also, the DCMA Defense
Corporate Executive should renegotiate the advance agreement with the contractor, as
provided for in paragraph 13 of the advance agreement and thus incorporate the DCAA
and the DCMA Contractor Insurance/Pension Review Team determinations. (See the
Finding section of the report for the detailed recommendations.)

Management Comments and Evaluation Response

DCAA concurred and satisfied the intent of the recommendations. On February 3, 2005,
DCAA issued a final report, “Implementation of July 28, 1997 and December 3, 1997
Advance Agreements on Litton Corporation Pension Plan Adjustments.” DCAA
examined the advance agreement for pension accounting, for accuracy, and application
under CAS 413 and provided the recommended changes to the Defense Corporate
Executive. DCAA also has determined the affect on the pension asset credit due the
Government against Litton Industries, Inc., Plan 9, Itek Share Plan Code caused by the
incorrect annual amortization of the Sperry Marine, Inc., deficit. Finally, DCAA
determined the Government’s share of the 1994 through 1997 annual pension cost with
actuarial interest based on quarterly funding, and calculated the unallowable interest cost
resulting from the contractor’s delayed funding beyond the required quarterly funding
dates. These actions satisfy the intent of the recommendation.

Although not required to comment on the finding, DCAA commented on certain CAS
events in the finding and determined that their comments should be marked “For Official
Use Only.” DCAA also determined that their comments were predecisional to any
contracting officer’s decision on the application of CAS 413 to certain report events and
requested that their comments not be included in the final report. In deference to that
request, the DCAA comments were omitted from the report.

DCMA concurred with the recommendations and agreed to calculate the effect of
CAS 413.50(c)(12)(iv) on pension plan improvements for the periods of January 1, 1994,
through March 31, 1997, and April 1, 1997, through July 1, 1997, as well as determine
the correct amount of the pension deficit. In addition, DCMA agreed to the cost impact
of the cost accounting practice change and the cost impact of the CAS 413.50(c)(12)(iv)
limitations on pension plan improvements. DCMA also agreed to determine the cost and
pricing affect on Government contracts for the unilateral (voluntary) cost accounting
practice change of changing actuarial cost methods. DCMA estimated that these actions
should be complete by June 2005. Additionally, DCMA stated that if found that the
Government had been harmed, the Defense Corporate Executive will renegotiate the
advance agreement to incorporate the DCAA and DCMA findings within 60 days after
receiving such findings.

See the Finding section of the report for a discussion of management comments and the
Management Comments section of the report for the complete text of the DCMA
comments.




                                             ii
Table of Contents

Executive Summary                               i

Background                                     1

Objective                                      3

Finding
     Sperry Marine Advance Agreement            4

Appendixes
     A. Scope and Methodology                  10
         Prior Coverage                        10
     B. Additional Interest Expense Incurred   11
     C. Report Distribution                    14

Management Comments
     Defense Contract Management Agency        17
Background
    Sperry Marine, Inc. The company developed gyroscopes and numerous other
    navigation products for large, commercial, ocean-going vessels and aircraft and
    provides marine electronics to commercial and Defense markets.

    Sperry Marine, Inc. (Sperry Marine), has undergone several transfers of
    ownership over the last 10 years. In 1993, the J.F. Lehman & Associates
    purchased Sperry Marine from Tenneco. In May of 1996, Litton Industries, Inc.
    (Litton), purchased Sperry Marine and incorporated it into the Litton Guidance
    and Controls Division. Subsequently, in April 2001, Litton was acquired by
    Northrop Grumman. The following is a complete chronology of the major
    pension-related events for Sperry Marine from 1993 through 1997.

    Sperry Marine Chronology of Events

    11/12/1993    J. F. Lehman & Associates acquired Sperry Marine from
                  Tenneco/Newport News

    1/1/1994      Effective date of Sperry Marine, Employees Retirement Plan (the
                  Plan)

    2/6/1995      1994 plan year - the Plan Actuarial Valuation was issued with a
                  funding requirement of $1,367,371

    4/27/1995     1994 plan year - Sperry Marine contributed $50,000 to the Plan

    9/14/1995     1994 plan year - Sperry Marine contributed $1,322,002 to the Plan

    1/1/1996      Effective date of retroactive change in the Plan Actuarial
                  Valuation Method from “Entry Age Normal” method to “Projected
                  Unit Credit” method (see 12/17/1996 event)

    5/1/1996      Litton acquired Sperry Marine from J.F. Lehman & Associates

    8/21/1996     1996 plan year - the Plan Actuarial Valuation was issued with a
                  funding requirement of $1,597,895 but subsequently changed by
                  Litton (see 12/17/1996 event)

    9/15/1996     1995 plan year - Sperry Marine contributed $1,486,564 to the Plan

    12/17/1996    Litton approved a retroactive change in the Plan Actuarial
                  Valuation method effective back to 1/1/1996

    3/31/1997     The Plan merged into Litton Plan 9

    3/31/1997     Sperry Marine curtailed the Plan Benefit Accrual with credited
                  service and earnings frozen as of 3/31/1997


                                        1
3/31/1997     The Plan is spun-off from Litton Plan 9 with a new lump sum
              benefit election added

4/15/1997     1996 plan year - Sperry Marine contributed $698,728 to the Plan

7/1/1997      Litton terminated the Plan

9/5/1997      Sperry Marine made all distributions to Plan participants (annuity
              purchases, 401(k) Plan transfers, and cash payments)

11/3/1997     Litton executed the Advance Agreement-Pension Accounting for
              Merger of Sperry Marine, Inc., and Litton Industries, Inc., Plan
              “B” Pension Plans (the Agreement)

12/3/1997     The Government executed the Agreement

12/3/1997     Effective date of the Agreement

Defense Contract Audit Agency. The Defense Contract Audit Agency (DCAA)
performs the contract audits for DoD and provides accounting and financial
advisory services regarding contracts and subcontracts to the DoD Components
responsible for procurement and contract administration.

Defense Contract Management Agency. The Defense Contract Management
Agency (DCMA) performs price/cost analyses, overhead and contractor system
reviews, financial services, transportation and packaging, and termination
settlements for DoD. DCMA also provides program and technical support by
analyzing costs, schedules, and technical performance of contractor programs and
systems.

Contractor Insurance/Pension Review Teams. The Contractor
Insurance/Pension Review (CIPR) team is responsible for conducting CIPRs. A
CIPR is a comprehensive review of contractors’ insurance programs; pension
plans; other deferred compensation plans; and related policy, procedures,
practices, and costs. A CIPR is initiated at the request of the Administrative
Contracting Officer. DCAA auditors and DCMA insurance/pension specialists
comprise the CIPR team.

If a business combination (merger) occurs, the CIPR team determines whether the
contractor has complied with the special segment closing provisions of Cost
Accounting Standard (CAS) 413.50(c)(12). The determination requires an
analysis of how the contractor calculated the pension assets and liabilities and
how the assets and liabilities of the segments involved in the transaction were
allocated. The asset and liability balances determine the basis for measuring the
effect of the adjustment on previously determined pension costs that
CAS 413.50(c)(12) requires.

The contractor’s accounting for pension assets and liabilities must comply with
the measurement and allocation requirements of CAS 412, “Composition and
Measurement of Pension Cost,” and CAS 413, “Adjustment and Allocation of
Pension Cost,” and must be allocable, reasonable, and allowable in accordance

                                    2
    with Federal Acquisition Regulation (FAR), Subpart 31.2 “Contracts With
    Commercial Organizations.”

    The CIPR program review steps cover the key aspects of accounting for pension
    assets and liabilities for segment closings, benefit curtailments, and plan
    terminations.


Objective
    The objective was to determine whether the Agreement is in compliance with the
    CAS and FAR and whether the pension accounting provisions contained in the
    Agreement provided for a fair and equitable settlement to the Government. See
    Appendix A for a discussion of the scope, methodology, and prior coverage
    related to the objectives.




                                       3
           Sperry Marine Advance Agreement
           The “Advance Agreement, Pension Accounting for Merger of Sperry
           Marine, Inc., and Litton Industries, Inc., Plan ‘B’ Pension Plans”
           (the Agreement) between the Government and Litton did not comply with
           the CAS 413 pension accounting provisions for the merger, spin-off,
           benefit curtailment, and termination of the Sperry Marine, Inc., Employee
           Retirement Plan (the Plan) because the Agreement includes factual errors
           and omits significant pension accounting events. The factual errors
           include the incorrect assertion that the March 31, 1997, merger of the
           Sperry Marine plan into the Litton plan was a segment closing and an
           incorrect pension settlement calculation that was performed as if the Plan
           had been terminated. The amortization schedule covering a Sperry Marine
           deficit was also incorrectly calculated. The Agreement omits
           consideration of Sperry Marine’s failure to make quarterly pension
           contributions, a retroactive change in the actuarial cost method,
           curtailment of benefits, and limitations on the liability for pension plan
           improvements curtailed or terminated within 60 months of their effective
           date. As a result, the Government was improperly charged for additional
           pension costs based on an erroneous calculation that understated
           Government-funded pension assets and overstated pension liabilities.


Sperry Marine Pension Accounting
    The Agreement. In December 1997, Litton and the Government entered into the
    Agreement. According to the Agreement, the Litton Industries, Inc., Plan B (also
    referred to as Litton Plan 9), contained the pension plan assets and liabilities of
    Litton defense divisions. On March 31, 1997, the Plan merged with the Litton
    Plan 9 to permit a portion of the Litton Plan 9 surplus to be used to offset a
    funding deficit in the Plan, and defer further contributions by Litton and the
    Government to the Plan. Also on March 31, 1997, Litton spun-off the Plan from
    the Litton Plan 9, with assets equal to liabilities. On July 1, 1997, Litton
    terminated the Plan.

    According to the Agreement, the merger of the Plan into Litton Plan 9 on
    March 31, 1997, resulted in a CAS segment closing, and under
    CAS 413.50(c)(12) a calculation was required to determine the difference
    between the market value of the assets and the actuarial liability for the Plan. The
    Agreement states that the $6,354,419 actuarial liability, as of March 31, 1997,
    was greater than the $4,304,419 market value of the assets, resulting in a total
    deficit of $2,050,000.

    The Government’s share of the deficit, 59 percent, was based on the percentage of
    Government sales versus the total sales for Sperry Marine from 1993 through
    1996. Thus, the Government’s share of the deficit was calculated to be
    $1,209,295 (59 percent of $2,050,000).

    Litton and the Government agreed to recognize the Government’s share of the
    deficit by permitting it to be amortized over a 5-year period (1996 through 2000)
                                         4
     at 8 percent, by offsetting the deficit against previously agreed-to pension cost
     credits due the Government.

     Adjustments to the Agreement. The Agreement also contains a paragraph by
     which disputed amounts will be adjudicated. Paragraph 13 states, “In the event of
     any disagreement or dispute with respect to the terms, operation or administration
     of this Agreement, and prior to resort to formal ‘Disputes’ procedures as
     authorized by law and regulations, the parties hereto commit first to attempt to
     resolve such disagreement or dispute through alternative means, such means to
     include escalation to respective higher ranking executives, non-binding mediation
     whether structured or informal, and (if mutually agreeable) binding arbitration.”

Factual Errors in the Agreement
     Segment Closing. The assertion that the merger of the Plan into the Litton Plan 9
     on March 31, 1997, should be treated as though a CAS 413 segment closing
     occurred on that date is incorrect. The merger of the plans does not represent a
     CAS 413 segment closing, and the plan termination calculation of a $2,050,000
     deficit as of March 31, 1997, is invalid.

     Amortization Schedule. The Plan deficit, as presented in the Agreement, was
     incorrectly amortized. The Government’s share of the Plan deficit of $1,209,295
     was amortized at 8 percent over a 5-year period that, according to the Agreement,
     yields a yearly amortization of $261,207. However, the annual amortization
     amount obtained using standard amortization calculations and the same
     assumptions is $302,876. That amount is an annual error of $41,669, or $208,345
     over the 5-year amortization period.

Omissions in the Agreement
     Cost Accounting Practice Change. A retroactive change in the actuarial cost
     method resulted in an $899,167 reduction between the pension cost used for
     contract cost and pricing calculations and the actual pension contribution. The
     Agreement does not address that event, which was a cost accounting practice
     change. The 1996 actuarial report for the Plan, dated August 21, 1996, required a
     contribution of $1,597,895 for 1996 using the “entry-age normal” actuarial cost
     method. However, the 1996 Sperry Marine Form 5500 (Schedule B), “Actuarial
     Information,” for the Plan, dated May 2, 1997, shows that a change in the
     actuarial cost method to the “projected unit cost” method was approved on
     December 16, 1996. The retroactive change in the actuarial cost method reduced
     the 1996 contribution requirement from $1,597,895 to $698,728, a difference of
     $899,167. A change in the actuarial cost method was a CAS change that required
     a revision to the CAS Disclosure Statement and an adjustment to Government
     contract cost and pricing amounts for 1996.

     Delayed Contributions. CAS and FAR require that pension costs charged to
     Government contracts must be funded on or before a Government contractor’s
     Federal income tax filing date. The Federal income tax filing date is usually

                                           5
8 and ½ months after the close of a contractor’s fiscal year. However, in addition
to the annual funding requirement, a quarterly funding stipulation is specified in
the FAR. Specifically, FAR 31.205-6(j) states, “Increased pension costs are
unallowable if the increase is caused by a delay in funding beyond 30 days after
each quarter of the year to which they are assignable.” Generally, the increased
cost as a result of a delay in funding reflects the additional interest expense
incurred (earnings loss) by not having the money deposited timely.

The Plan was effective on January 1, 1994, and was terminated as of July 1, 1997.
Contributions to the plan were made for plan years 1994, 1995, and 1996.
However, Sperry Marine did not make quarterly contributions but delayed making
contributions to the Plan from between 2 to 16 months beyond the quarterly
funding dates. Sperry Marine’s failure to fund the Plan on a quarterly basis
resulted in the required contributions not being available for investment purposes,
resulting in lost investment earnings of $118,632, $130,367, and $35,745 for the
1994, 1995, and 1996 plan years respectively.

According to CAS 412.50(a)(2), the lost investment earnings represent an
unallowable cost that is accounted for in the Plan’s actuarial balance sheet as an
unfunded actuarial liability (UAL). CAS 412.50(a)(2) states, “Any portion of
unfunded actuarial liability attributable to either (i) pension costs applicable to
prior years that were specifically unallowable in accordance with then existing
Government contractual provisions . . . shall be separately identified and
eliminated from any unfunded actuarial liability being amortized pursuant to
paragraph (a)(1) of this subsection. Such portions of unfunded actuarial liability
shall be adjusted for interest at the valuation rate of interest.”

The lost investment earnings included in the Plan’s UAL and adjusted at the Plan
valuation interest rate of 9 percent came to approximately $326,000. That
pension accounting issue was omitted from the Agreement and must be addressed
in the adjustment of previously determined pension cost. See Appendix B Table
A4 for the detailed calculation of the lost investment earnings.

Curtailment of Benefits. On March 3, 1997, the Plan was amended to suspend
future benefit accruals effective as of March 31, 1997, causing a CAS
413.50(c)(12) benefit curtailment event that was omitted from the Agreement.
The event required calculation of an adjustment to the Plan actuarial liability
using actuarial assumptions consistent with the current and long term assumptions
used in the measurement of pension costs. The difference between the market
value of assets and the recalculated actuarial liability represents an adjustment to
previously determined pension costs charged to Government contracts.

Limitation on the Liability for Pension Plan Improvements. The application
of CAS 413.50(c)(12)(iv) to limit the liability for pension plan improvements that
are terminated or curtailed within 60 months of their effective date was omitted
from the Agreement. CAS 413.50(c)(12)(iv) states, “Pension plan improvements
adopted within 60 months of the date of the event, which increase the actuarial
liability shall be recognized on a prorata basis using the number of months the
date of adoption preceded the event date.”



                                     6
    The effective date of the Plan was January 1, 1994. On March 3, 1997, the Plan
    was amended to suspend future benefit accruals as of March 31, 1997. The
    duration of time between the Plan effective date (January 1, 1994) and the Plan
    benefit curtailment date (March 31, 1997) was 39 months. Based on a calculation
    of 39/60 or 65 percent, the Government should recognize only 65 percent of the
    pension plan’s liability applicable to Sperry Marine’s Government contract
    business for the period of January 1, 1994, through March 31, 1997.

    Also, on March 31, 1997, the Plan was spun-off from the Litton Plan 9 with the
    benefit accrual frozen as of March 31, 1997, but with a plan improvement of an
    immediate payout of the benefits options.

    On July 1, 1997, the Plan was terminated, causing a CAS 413.50(c)(12) benefit
    termination event. The duration of time from the March 31, 1997, plan spin-off
    date until the plan termination date was 3 months. Based on a calculation of 3/60
    or 5 percent, the Government should recognize only 5 percent of any increased
    liability as a result of the immediate payout of benefits option applicable to
    Sperry Marine’s Government contract business for the period of March 31, 1997,
    through July 1, 1997.


Management Comments on the Finding and Audit Response
    DCAA Comments. Although not required to comment on the finding, DCAA
    commented on certain CAS events in the finding and stated that their comments
    should be marked “For Official Use Only.” DCAA also stated that their
    comments were predecisional to any contracting officer’s decision on the
    application of CAS 413 to certain report events and requested that their comments
    not be included in the final report.

    Audit Response. In deference to the DCAA request, their comments were
    omitted from the report.


Recommendations and Management Comments
    1. We recommend that the Director of the Defense Contract Audit Agency:

           a. Examine the Advance Agreement pension accounting events for
    their accuracy and application under CAS 413, and provide any
    recommended changes to the Defense Corporate Executive.

            Management Comments. DCAA concurred and satisfied the intent of
    the recommendations. On February 3, 2005, DCAA issued a final report,
    “Implementation of July 28, 1997 and December 3, 1997 Advance Agreements on
    Litton Corporation Pension Plan Adjustments.” DCAA examined the advance
    agreement for pension accounting, for accuracy, and for application under


                                        7
CAS 413 and provided to the Defense Corporate Executive the recommended
changes.

       b. Determine any affect on the pension asset credit due the
Government against Litton Plan 9, Itek Share Plan Code LSI 47-091-312
caused by the incorrect annual amortization of the Sperry Marine deficit
amounts under paragraph 10 of the Advance Agreement, and provide the
findings to the Defense Corporate Executive.

        Management Comments. DCAA concurred and has determined the
affect on the pension asset credit due the Government against Litton Plan 9, Itek
Share Plan Code caused by the incorrect annual amortization of the Sperry
Marine deficit.

       c. Determine the Government’s share of 1994 through 1997 annual
pension cost to fund the January 1 liability amounts plus actuarial interest
based on quarterly funding of the pension cost, and then calculate the excess
actuarial interest cost resulting from the contractor’s delayed funding to
determine the unallowable interest cost under FAR 31.205-6(j)(2)(iii), that is
included as an unfunded liability under CAS 412.50(a)(2).

        Management Comments. DCAA concurred and determined the
Government’s share of the 1994 through 1997 annual pension cost plus actuarial
interest based on quarterly funding. Also, DCAA calculated the interest cost
resulting from the contractor’s delayed funding to determine the unallowable
interest costs.

2. We recommend that the Director of the Defense Contract Management
Agency:

        a. Calculate the effect of applying CAS 413.50(c)(12)(iv) which limits
the liability for pension plan improvements that are terminated or curtailed
within 60 months of their effective date for the periods of January 1, 1994,
through March 31, 1997, and from April 1, 1997, through July 1, 1997.

        Management Comments. DCMA concurred and stated that the CIPR
Center will determine the effect of CAS 413.50(c)(12)(iv) on pension plan
improvements January 1, 1994, through March 31, 1997, and April 1, 1997,
through July 1, 1997. The DCMA revised estimate of completion for this action
item is June 2005.

        b. Determine the correct amount of pension liability and the extent of
the Government’s exposure under CAS 413 to fund the liability caused by
the incorrect calculation of a plan deficit as of March 31, 1997, a cost
accounting practice change, and CAS 413.50(c)(12)(iv) limitations on the
liability for pension plan improvements.

        Management Comments. DCMA concurred and stated that the CIPR
Center will determine the correct amount of the pension deficit, the cost impact of
the cost accounting practice change, and the cost impact of the


                                     8
CAS 413.50(c)(12)(iv) limitations on pension plan improvements. The DCMA
revised estimate of completion for this action item is June 2005.

       c. Determine the cost and pricing effect on Government contracts for
the voluntary cost accounting practice change of changing actuarial cost
methods as prescribed by FAR 30.602-3, “Voluntary Changes.”

        Management Comments. DCMA concurred and stated that the CIPR
Center will determine the cost and pricing effect on Government contracts for the
unilateral (voluntary) cost accounting practice change of changing actuarial cost
methods. The DCMA revised estimate of completion for this action item is
June 2005.

       d. Renegotiate the advance agreement with the contractor, as
provided for under paragraph 13 of the Agreement, to incorporate the
Defense Contract Audit Agency and Defense Contract Management Agency
findings.

      Management Comments. DCMA concurred and stated if the DCMA
CIPR Center and DCAA find that the Government had been harmed, the Defense
Corporate Executive will renegotiate the Agreement to incorporate the DCAA
and DCMA findings within 60 days after receiving such findings.




                                    9
Appendix A. Scope and Methodology
    We reviewed the primary pension plans for Sperry Marine and the December
    1997 “Advance Agreement, Pension Accounting for Merger of Sperry Marine,
    Inc., and Litton Industries, Inc., Plan ‘B’ Pension Plans.” We also reviewed the
    pension data DCAA auditors and DCMA pension specialists obtained during their
    oversight of contractor pensions. We reviewed data for January 1, 1994, through
    December 3, 1997.

    Our review included the Department of Labor/Internal Revenue Service
    Form 5500 (Plan Annual Report), Schedule B, prepared by the Plan’s actuary and
    the supporting plan financial reports prepared by the contractor’s public
    accounting firm. We obtained some specific Sperry Marine records from DCMA
    and DCAA related to the Agreement.

    We performed this evaluation from April 5, 2004, through September 3, 2004, in
    accordance with standards implemented by the Inspector General of the
    Department of Defense (IG DoD).

    The scope of the evaluation was limited in that we did not review the
    management control program.

    Use of Computer-Processed Data. We did not use computer-processed data to
    perform this evaluation.

    General Accounting Office High-Risk Area. The General Accounting Office
    has identified several high-risk areas in DoD. This report provides coverage of
    the Contract Management high-risk area.


Prior Coverage
    During the last 5 years, the DoD Inspector General issued one report that
    discusses pension plan advance agreements, DoD IG Report No. D-2004-025,
    “Accounting for Pension Assets Under Advance Agreements with Northrop
    Grumman and Litton Industries, Inc.,” November 25, 2003. Unrestricted DoD IG
    reports can be accessed at http://www.dodig.osd.mil/audit/reports.




                                        10
Appendix B. Additional Interest Expense
            Incurred
     Following are the schedules for unallowable interest expenses and unallowable
     unfunded actuarial liabilities (UAL) for plan years 1994, 1995, and 1996. The
     unallowable UAL for each year was computed by determining the number of
     months between the dates of the required quarterly deposits and the date the
     contributions were actually made. The Plan interest rate of 9 percent was
     converted to a monthly factor of .0075. The product of the monthly interest factor
     and the required quarterly contribution amount is the unallowable UAL per
     quarter. In addition to computing the annual unallowable UAL (costs) for 1994,
     1995, and 1996, the unallowable UAL was adjusted for the valuation rate of
     interest as required by CAS 412-50(a)(2).



                                  Table A1. Plan Year 1994

                                                                     Allocation
Quarterly    Actual      Months        Monthly     Months times       of Actual Unallowable
Funding     Payment      Funding       Rate of      the Monthly       Payment     Interest
 Dates       Dates       Delayed       Interest    Interest Rate     to Quarter Expense

04/30/1994 04/27/1995      12.0        0.0075         0.09000         $ 50,000    $ 4,500
           09/14/1995      16.5        0.0075         0.12375         284,222      35,172
                                                                      $334,222

07/31/1994 09/14/1995      13.5        0.0075         0.10125         $334,222      33,840


10/30/1994 09/14/1995      10.5        0.0075         0.07875         $334,222      26,320


01/31/1995 09/14/1995      7.5         0.0075         0.05625        $334,222       18,800

  Total                                                                           $118,632




                                         11
                            Table A2. Plan Year 1995
                                                           Allocation
Quarterly    Actual     Months Monthly Months times         of Actual Unallowable
Funding     Payment     Funding Rate of the Monthly         Payment     Interest
 Dates       Dates      Delayed Interest Interest Rate     to Quarter  Expense


04/30/1995 09/12/1996    16.5    0.0075        0.12375     $   362,130 $ 44,813


07/31/1995 09/12/1996    13.5    0.0075        0.10125     $   362,130     36,666


10/30/1995 09/12/1996    10.5    0.0075        0.07875     $   362,130     28,518


01/31/1996 09/12/1996     7.5    0.0075        0.05625     $   362,130     20,370

  Total                                                                  $ 130,367


                                Table A3. Plan Year 1996
                                                           Allocation
Quarterly    Actual     Months Monthly Months times         of Actual Unallowable
Funding     Payment     Funding Rate of the Monthly         Payment     Interest
 Dates       Dates      Delayed Interest Interest Rate     to Quarter  Expense


04/30/1996 04/15/1997    11.5    0.0075        0.08625     $   170,212 $ 14,681


07/31/1996 04/15/1997     8.5    0.0075        0.06375     $   170,212     10,851


10/30/1996 04/15/1997     5.5    0.0075        0.04125     $   170,212      7,021


01/31/1997 04/15/1997     2.5    0.0075        0.01875     $   170,212      3,192

  Total                                                                  $ 35,745



                                          12
      The following schedule shows the earning amounts each year, using the Plan
      interest rate of 9 percent, which would have been earned on the contributions had
      they been made on a quarterly basis (30 days after the end of each quarter). The
      overall lost interest cost for not making quarterly contributions was $325,964. As
      such, according to CAS 412-50(a)(2) those lost earning costs (unallowable costs)
      should be removed from the Plan’s overall unfunded actuarial liability amount.

                               Table A4. Earnings per Year

                                 1994              1995            1996
                               Plan Year         Plan Year       Plan Year       Total

Unallowable UAL-1/1/95        $ 118,632
 Interest @ 9%                   10,677
Unallowable UAL-1/1/96        $ 129,309         $ 130,367
 Interest @ 9%                   11,638            11,733
Unallowable UAL-1/1/97        $ 140,947         $ 142,100    $     35,745
 Interest @ 9% (3 mo.)            3,171             3,197             804
Unallowable UAL-3/31/97       $ 144,118         $ 145,297    $     36,549    $   325,964




                                           13
Appendix C. Report Distribution

Office of the Secretary of Defense
Under Secretary of Defense for Acquisition, Technology, and Logistics
Under Secretary of Defense (Comptroller)/Chief Financial Officer
   Deputy Chief Financial Officer
   Deputy Comptroller (Program/Budget)
Director, Program Analysis and Evaluation

Department of the Navy
Naval Inspector General
Auditor General, Department of the Navy

Department of the Air Force
Auditor General, Department of the Air Force

Combatant Command
Inspector General, U.S. Joint Forces Command

Other Defense Organizations
Director, Defense Contract Audit Agency
Director, Defense Contract Management Agency

Non-Defense Federal Organization
Office of Management and Budget
  Office of Federal Procurement Policy
     Executive Secretary Cost Accounting Standards Board




                                          14
Congressional Committees and Subcommittees, Chairman and
  Ranking Minority Member
Senate Committee on Appropriations
Senate Subcommittee on Defense, Committee on Appropriations
Senate Committee on Armed Services
House Committee on Appropriations
House Subcommittee on Defense, Committee on Appropriations
House Committee on Armed Services
House Committee on Government Reform
House Subcommittee on Government Efficiency and Financial Management, Committee
  on Government Reform
House Subcommittee on National Security, Emerging Threats, and International
  Relations, Committee on Government Reform
House Subcommittee on Technology, Information Policy, Intergovernmental Relations,
  and the Census, Committee on Government Reform




                                        15
Defense Contract Management Agency
Comments




                    17
18
19
20
21
22
Team Members
The Department of Defense Office of the Deputy Inspector General for Auditing,
Audit Followup and Technical Support prepared this report. Personnel of the
Department of Defense Office of Inspector General who contributed to the report
are listed below.

Robert K. West
Kenneth H. Stavenjord
Ronald R. Meissner
William R. Harshman
